/9-iSS
Case NoJ

Supreme Court, U.S
FILED

IN THE SUPREME COURT OF THE UNITED
STATES
OFRCEOFTHECLFBk-

In re DIMITRI JONTHIEL PATTERSON,
PETITIONER

PETITION FOR WRIT OF HABEAS CORPUS

Date: September 16, 2019

Dimitri Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
prolificdezigns@gmail.com
407-777-2269

QUESTIONS PRESENTED
Should a Petitioner raising a 28 U.S.C §2241
Habeas Corpus, remain in State custody without
certified legal documentation in violation of his
constitutional rights?

ii

PARTIES TO THE PROCEEDINGS BELOW
The Petitioner is Dimitri Jonthiel Patterson.
The Respondent is Miami-Dade Corrections
and Rehabilitation Department,

in

TABLE OF CONTENTS
Questions Presented

••
n

Parties to the Proceedings—...iii
Table of Contents

,iv

Table of Appendix

1VV1

,.vn-ix

Table of Authorities
Petition for Writ of Habeas
Corpus

1

Statement of Jurisdiction

1

Custody.

1-2

Constitutional Provisions

2

Statement of the Case

2-28

Grounds for Habeas Relief.. • • •• • • • 28-29
29-33

Reasons for Granting Writ,
Conclusion and Relief
Verification

....33-34

• •••••••••••• •• • • • .35-36

APPENDICES
TABLE OF APPENDIX
iv

APPENDIX A- Memorandum of Law
APPENDIX B- Third District Court of Appeals
uncertified Order denying Petitioner’s Habeas
Petition
APPENDIX C- Florida Supreme Court’s purported
uncertified order transferring the petition for Habeas
Corpus down to the Lower Tribunal Court
APPENDIX D- U.S District Court for the Southern
District of Florida’s Order dismissing the Habeas
Corpus, and Docket Text denial of a Certificate of
Appealability
APPENDIX E- Purported Final Disposition in Case
B-15-034548
APPENDIX F- Purported F-17-061392 Alias Capias
APPENDIX G- Purported Charging Document for
Case B-15-03458
v

APPENDIX H- Purported Charging Document for
Case F-17-061392
APPENDIX I- Correspondence to Attorney General

VI

TABLE OF AUTHORITIES
Bankers Life & Casualty Co. v. Holland,
346 U.S. 379, 383, 74 S. Ct.
145, 98 L. Ed 106 (1953)

30

Braden v. 30th Judicial Circuit Court ofKy.,
410 U.S. 484-495 (1973)

31

Ex Parte Grossman,
267 U.S. 87 (1925)

31

Ex Parte Hudgings,
249 U.S. 378 (1919)

31

Matter ofHeff,
197 U.S. 488 (1905)

31

Wales v. Whitney,
114 U.S. 564, 574 (1885)

31

Will, 389 U.S
at 95, 88 S. Ct. 269, 542
U.S. 367, 380 (2004)

30

Will v. United States,
vii

389 U.S. 90, 95, 88 S. Ct. 269,
19 L. Ed. 2d 305 (1967)...

.30

Younger v. Harris,
.1

401 U.S. 37 (1971).
RULES
28 U.S.C. § 1654
28 U.S.C. §2241

11, 12
••••••••

.......... 1, 2, 29
32, 34
.32

28 U.S.C. 2241(c)(3)

...1, 29

28 U.S.C. § 2242.
Florida Jurisprudence 2d 1151, 1153,
1163, 1164, and 1165.

...3, 10

U.S. Supreme Court Rule 20.4(a)

...3, 30

FLORIDA STATUTES
.3, 10

Florida Statute 28.222

U S. CONSHTUTIONAL AMENDMENTS
..29

Fourth Amendment__
Fifth Amendment..... •

• •••••••

2, 11
viii

PETITION FOR WRIT OF HABEAS CORPUS
Petitioner, Dimitri Jonthiel Patterson, hereby
respectfully petitions this Court for a Writ of Habeas

Corpus.
STATEMENT OF JURISDICTION
This Court’s jurisdiction is invoked pursuant
to 28 U.S.C. § 2241.
Pursuant to 28 U.S.C. 2242, the Petitioner did
not file this Petition with the District Court because
the Petitioner has previously filed 28 U.S.C. 2241
Petitions with the District Court, and the District
Court has either abused its discretion by citing
Younger v. Harris, 401 U.S. 37 (1971), or, has
exhibited deliberate indifference by refusing to rule.
CUSTODY
The Petitioner is currently being unlawfully
detained at the Turner Guilford Knight Correctional

1

Center (TGK) located at 7000 NW 41st St, Miami, FL
33166, under Booking Number 180167717,
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Due Process Clause, which is stated in
the Fifth and Fourteenth Amendments and is a
safeguard from arbitrary denial of life, liberty or
property by the Government. The Thirteenth
Amendment abolishes involuntary servitude except
as punishment.
28 U.S.C § 2241-The Writ of Habeas Corpus
shall not extend to a prisoner unless—
(l) He is in custody under or by color of the authority
of the United States or is committed for trial before
some court thereof, or,
(3) He is in custody in violation of the Constitution
or laws or treaties of the United States.
STATEMENT OF THE CASE
2

Pursuant to Rule 20.4(a), the following
extraordinary circumstances warrants this Court’s
discretionary powers •
Case B-15-034548 is purported pursuant to
the Florida Jurisprudence 2d 1151, 1153, 1163, 1164,
and 1165, and Florida Statute 28.222, which
constitutes malicious prosecution against the
Petitioner.
In the clear absence of jurisdiction, Judge
William Altfield presided over invalid Case B-15034548, where on July 24, 2017, the Petitioner was
found not guilty by a jury of his peers. On that day,
rather than the Petitioner freely exiting the
courtroom as the law states, he was unlawfully held
by Judge William Altfield and told to return on July
26, 2017.
On July 26, 2017, when the Petitioner
returned, Judge William Altfield demanded the State
3

Attorney to give the Petitioner a “Rule to Show
Cause”, which was an invalid action and a clear
conflict of interest.

z

Judge William Altfield signed a “Rule to
Show” cause and made the notation, “Nunc pro Tunc”
to July 26, 2017. This did not cure the defect on the
order and therefore, the order was not valid and was
not properly served or filed. There was no “caution”,
“restraint”, or, “discretion” in the procedures
employed in this matter and no other criminal
proceeding could have been initiated in the way
Judge William Altfield initiated these proceedings.
While the Petitioner appeared on August 15,
2017, he did not do so under any lawful legal
authority, and as previously stated, the rule did not
inform him of the charges or that he was facing
criminal penalties. Judge William Altfield held the
Petitioner against his will by threatening,
4

intimidating, and bullying him with six Miami-Dade
Police Officers standing in front of the exit doors.
Court audio and transcripts were pulled from
the August 15, 2017 hearing and reflected when the
Petitioner addressed Judge William Altfield, he did
so in a calm and quiet manner just before he was
removed. The record reflects that the Petitioner’s
conduct was not the type of loud, aggressive,
disruptive conduct for which courts have been upheld
in their decisions to remove defendants or find them
in direct criminal contempt. Court Audio (August 15,
2017 2-28-49- 2^29:00} reflect Judge William Altfield
allegedly finding Defendant in Criminal contempt
based on the below transcriptions;
Judge Altfield-1 need you first of all to
not talk back to me, that is number one. And
secondly I need you to be quiet while we
present this..uh..case. You know how to make
5

an objection. You made objections during your
trial. You know what goes on during a
hearing.
Mr. Patterson- You just said this is not
a trial.
Judge Altfield: That’s it. That’s it. Take
him out. You are found in contempt of court
sir. My patience has been stressed to the limit.
Although without authority, Judge William
Altfield held the Petitioner without bond and
detained him for the alleged Contempt. Judge
William Altfield failed to properly submit the
paperwork evidencing his findings and the grounds
for his purported 90-day sentence. When a
Correctional Officer raised the issue at a later court
hearing, Judge William Altfield claimed that the
paperwork was submitted, however, it must have
gotten “lost.” On [8/15/17 3:19:43- 3:22:04] a
6

Correctional Officer advised Judge William Altfield
that he needed a findings of fact, or, commitment
order immediately, so that the Petitioner can be
booked, or, he had to defer sentence and advise the
Petitioner that he was not sentenced. Judge William
Altfield replied, [3-22-33] “Well, I have a separate
proceeding where he can be sentenced.” Judge
William Altfield agreed that it erred with the
sentencing and issued a bond for the Petitioner.
The audio record of the Court’s proceeding
clearly evidences Judge William Altfield’s bias
toward the Petitioner. [8/15/17 2-07-59- 2-08:03]
Judge Altfield- Are you, are you leaving?
If, if you're leaving, I'm gonna make sure that
you're not gonna be leaving, okay?”
Repeatedly, Judge William Altfield made clear
his desire to illegally hold the Petitioner
against his will.
7

On August 28, 2017, during the sidebar
discussion, Judge William Altfield made the
following statement, “He’s going to go in for the
Direct Criminal Contempt.”
Upon the Petitioner requesting information
from Judge William Altfield on why would he still be
required to return to court for a case he had already
been acquitted of, Judge William Altfield pressed the
panic button under his bench and advised the
Petitioner that he was being held in Contempt of
Court. The Petitioner can be heard on audio
recordings asking his mother to call the police before
being tackled to the ground by MiamrDade Police
Officers.
On December 27, 2018, Judge William Altfield,
upon placing an Order to Transport with the
instructions, “By any means necessary”, the
Petitioner was maced, pepper sprayed, and
8

physically and forcefully transported to the Lawson
E. Thomas Courthouse Center, where Judge William
Altfield advised the Petitioner that he was
sentencing him to 120 days for Direct Criminal
Contempt. The sentencing is invalid because;
a.)

Petitioner’s alleged
misconduct did not disturb
the Court's business or
threaten demoralization of its
authority.

b.)

Judge William Altfield was so
personally embroiled and
interested in the controversy
that he should not have
decided the contempt issue.

c.)

Judge William Altfield
purportedly sentenced the
Petitioner based on invalid
9

Case B-15*034548, which has
a final disposition of Not
Guilty issued on July 27,
2017;
Case # F-17-016392 is purported pursuant to
the Florida Jurisprudence 2d 1151, 1153, 1163, 1164,
and 1165, and Florida Statute 28.222, which
constitutes malicious prosecution against the
Petitioner.
On August 15, 2017, after reporting to a Rule
to Show Cause presided over by Judge William
Altfield, the Petitioner was arrested after being
attacked by Miami-Dade Police Officers for allegedly
resisting arrest. Court audio did not capture the
Petitioner resisting arrest, or, any Officers
requesting assistance, or, asking the Petitioner to
stop resisting. (Court audio 02‘12-05-2»29-12},
Thereafter, the Petitioner was purportedly charged
10

with 1 count of battery on a Leo and 6 counts of
resisting arrest without violence.
On August 23, 3017, bond was posted for the
Petitioner in relation to Case F-17-016392. Eager to
clear his name, the Petitioner filed a Notice of SelfRepresentation and Appearance on August 29, 2017,
pursuant to 28 U.S.C. § 1654.
On August 30, 2017, and October 10, 2017,
pursuant to the Sixth Amendment a “Demand for
Speedy Trial” was by the Petitioner for Case F-17016392.
On September 1, 2017, the Petitioner’s
Demand for a Speedy Trial was struck because the
Court did not have a valid and properly executed
Filing of Information, which in turn, violated the
Petitioner’s Fifth Amendment Rights. Nevertheless,
invocation of the right need not always await
indictment, information, or other formal charge but
11

can begin with the actual restraints imposed by
arrest if those restraints precede the formal
preferring of charges.
No order was ever presented or served to the
Petitioner for the Strike. The trial court’s failure to
hold the calendar call did not toll the running of any
time periods under this rule.
On September 9, 2017, the Petitioner, yet
again, filed a notice of self-representation pursuant
to 28 U.S.C. § 1654.
On September 15, 2017, the Petitioner
appeared before Judge Milton Hirsch and was
advised that although he was wanting to act as a
ProSe he would not be heard until he hired private
counsel.
On September 25, 2017, the Petitioner
appeared in Court in front of Judge Milton Hirsch
and Judge Hirsch questioned yet again as to where
12

was the Petitioner’s attorney. The Petitioner yet
again advised the court that he had just represented
himself in invalid Case B-15-034548 and was more
than capable to represent himself yet again as a Pro
Se. Judge Hirsh yet again advised the Petitioner that
he would not hear his case without an attorney and
that the Petitioner was required to return with an
attorney on September 27, 2017.
On September 27, 2017, the Petitioner once
again, as ordered, appeared before Judge Hirsch and
once again, was denied to be seen since he had not
retained private counsel. Judge Milton Hirsch then
verbally advised the Petitioner on record that he
wanted the Petitioner to take a psychological exam.
Judge Milton Hirsch then ordered the Petitioner to
return to Court on October 11, 2017 with an
attorney.

13

On October 10, 2017, the Petitioner, following
the order of Judge Milton Hirsch although knowing
it was violating his rights, retained counsel.
On October 10, 2017, the Petitioner yet again
demanded discovery and a copy of the Filing of
Information.
On October 11, 2017, the Petitioner filed
another “Demand for Speedy Trial”.
On October 11, 2017, the Court Docket
reflected a Demand for Speedy Trial set for October
12, 2017 at 0900.
On October 11, 2017, Judge Milton Hirsch
recused himself due to being Mends with Judge
William Altfield, and while allegedly transferring
Case F-17-016392 to Judge Oscar Rodriguez-Fonts,
Judge Hirsch informed the Petitioner that when he
reports on Thursday, October 12, 2017, Judge
Rodriguez-Fonts will be the new presiding Judge.
14

The Petitioner appeared prepared for trial on
October 12, 2017 before Judge Oscar RodriguezFonts, and once again, no trial occurred.
Case F-17-016392 should have been called for
a Calendar Call on September 6, 2017, and should
have been brought to trial before the Case expired on
October 18, 2017. Neither occurred. The State elected
to take no action in Case F-17 016392.
Since Case F-17-016392 expired pursuant to
the Speedy Trial Rule, On October 27, 2017, the
Petitioner withdrew his private counsel that was
ordered by Judge Milton Hirsch. (Please note that
the Petitioner consistently demanded a speedy trial
and reported in front of Judge Milton Hirsch on
multiple occasions and stated on record his request
for a speedy trial).

15

On May 7, 2018, the Petitioner was arrested
by U.S. Marshalls under a directive based on an
unexecuted warrant in Case F-17‘016392.
On May 11, 2018, in the clear absence of
jurisdiction, Judge Oscar Rodriguez-Fonts refused to
hear the motion on setting aside the Alias Capias
warrant but rather elected to set a bond in the
amount of $133,000.00, ordered on record for the
Petitioner to return on August 9, 2018 and August
20, 2018, in addition to ordering the Petitioner to
surrender his passport.
On June 18, 2018, The Petitioner filed a
Federal Lawsuit in the Middle District of Florida
naming Judge Oscar Rodriguez-Fonts as a Defendant
for violating his Civil Rights. (See Case 6-18-CV-950CEM-GJK)
On June 20, 2018, two days after the filing of
the Federal Lawsuit naming Judge Oscar Rodriguez16

Fonts, a purported Alias Capias was entered into the
Criminal Justice Information System and onto the
Miami-Dade County Clerk of Court’s Website as
retaliation.
On June 23, 2018, the Petitioner filed a
Motion to Withdraw the Alias Capias (Filing
#7409866) and a Motion to Discharge (Filing #
7406988)
On June 25, 2018, Judge Rodriguez-Fonts
pulled the original audio recording of the court
hearing on May 11, 2018 from 0950-1031, which
further confirmed that Judge Rodriguez-Fonts never
ordered the Petitioner to Court prior to August 9,
2018 and August 20, 2018. In the clear absence of
jurisdiction, rather than set aside his Alias Capias or
Discharge the Case pursuant to the law, Judge
Rodriguez Fonts took no action with either the

17

Motion to Withdraw Capias or the Motion to
Discharge.
On October 23, 2018, the Petitioner noticed an
Orange Comity Florida Sheriff s Police vehicle
following him as he was exiting off of the 408
Expressway.
The Petitioner then proceeds to turn into the
RaceTrac gas station. The Petitioner then proceeds to
exit his vehicle to pump gas and notices two more
police vehicles entering into the RaceTrac gas
station. After pumping the gas, The Petitioner
reentered his vehicle and without probable cause,
three Orange County Florida Police Department
Vehicles, hereinafter (OCPD) and one Ocoee Police
Department vehicle, hereinafter (OPD) and began
circling The Petitioner’s vehicle, and at that time, he
told his Mother to call 911/the Sheriffs Office
because numerous Officers were surrounding him.
18

Immediately after, one OCPD Officer pulled In front
of the Petitioner’s vehicle. The OCPD Officer in front
of the Petitioner’s vehicle, later identified as
Johnathan Reeves, exits his vehicle with his revolver
drawn. The OCPD Officer in the hack of the
Petitioner’s vehicle, later to be identified as Terris
Winburn, exits his vehicle with his revolver drawn.
Officer Jonathan Reeves proceeded to tell the
< Petitioner to get out of the vehicle and to get off the
phone, which at that time, the OPD Officer exited his
vehicle and proceeded to place handcuffs on the
Petitioner and guided him to the back seat of an
OCPD Officer’s vehicle. At this point and time, six
additional OCPD Officers pulled in, and immediately
thereafter, they began to illegally search the
Petitioner’s vehicle, without stating their purpose, or,
legally identifying the Petitioner as their suspect,
proving this to be an illegal ambush.
19

Then Officer Terris Winburn proceeds to
transport the Petitioner to the OCDC, after the
Petitioner made several demands to see the official
warrant, which Terris Winburn never produced.
OCDC proceeded to once again illegally receive the
Petitioner without a valid warrant. The Petitioner
Was booked in the Orange Comity Jail on October 23,
2018 at 1825.
On October 24, 2018, at an Orange County
Jail Bond Hearing, Judge Jeanette Bigney, who is
currently a Defendant in a Federal Suit {Patterson v.
Orange County Florida Case 6-18-CV-950-CEMGJK}, proceeded to retaliate against the Petitioner,
stating that the non-existent warrant is valid even
though it does not contain a signature of the issuing
judge, and then stated that the Petitioner will be
detained at the Orange County Jail until MiamiDade County picks him up. The Petitioner made
20

several requests on record to inspect the warrant,
and Judge Bigney denied him of that right.
After a Writ of Habeas Corpus was filed in the
Ninth Judicial Circuit Court of Florida on October
29, 2018, and Ms. Thabet advising Officer Arthur
Willis, the Risk Management Analyst for Orange
County Corrections of the warrant defects, which he
had provided to her as a way to justify the
detainment of the Petitioner, the Petitioner was
immediately transferred to Miami-Dade County on
Wednesday morning, October 31, 2018.
On Thursday, November 1,2018, the
Petitioner appeared at a non-docketed court hearing
at 1035 before Judge Rodriguez-Fonts. Judge
Rodriguez-Fonts asked the Petitioner where was his
legal counsel. The Petitioner asked why would he
need an attorney for an expired case? Judge
Rodriguez-Fonts stated, “I do not want to talk about
21

details of the case”. The Petitioner then continued to
advise Judge Rodriguez-Fonts that he could not be
impartial as he was already named as a Defendant in
a Federal Suit that the Petitioner had filed, along
with the filing of a Habeas Corpus, as well as stating
on record that Case F-17-061392 was discharged. In
addition, the Petitioner stated that Judge RodriguezFonts was violating his Civil Rights. Judge
Rodriguez-Fonts again stated, “He was not going to
discuss details but Wanted to know if the Petitioner
would get an attorney.” The Petitioner then
continued by citing the Florida Rules of Criminal
Procedure as it applied to the speedy trial rule, as
well as citing the Florida Rules of Judicial Procedure
as it pertained to valid warrants of arrest and filings
of information. The Petitioner also advised Judge
Rodriguez-Fonts that what he was doing by
knowingly attempting to continue a trial on expired
22

Case F-17-016392, is not only perceived, but evident
retaliation for the filing of the Federal Law Suit.
Judge Rodriguez-Fonts then had a side bar in which
he did not entitle the Petitioner, Pro-Se, to
participate in. The Petitioner inquired as to how he
would still be remanded, or, how the Court could
continue setting additional court dates, when Case F17-016392 was discharged. The Judge called for a
recess and dismissed Petitioner.
At 1353 on November 1, 2018, the Habeas
Corpus was completed and
filed in the Eleventh Judicial Circuit Court of
Florida.
At 1355 on November 1, 2018, Kathy Thabet
personally served a filed Habeas Corpus to Judge
Rodriguez-Fonts via hand delivery in his chambers.
At 1546 on November 1, 2018, Kathy Thabet
personally served a filed copy of the Habeas Corpus
23

to Sergeant Conner of the Turner Guilford Knight
Correctional Center.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 114)
reflected a Report for Ferrata Hearing set for
11/05/2018.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 115) stated
report re^ Pleas set for 11/05/2018 at 0900.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 116) stated
Felony sounding set for 01/09/2019 at 0900.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 117) stated
Trial hearing scheduled for 01/14/2019 at 0900.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 118) stated
Current Bond Status Def Held No Bond.
24

At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 119) stated
USS AMT/ 30000 REVOKED 11/01/2018.
At 1630 on November 1, 2018, the Court
Docket for Case F-17-016392 (Sequence 120) stated
USS AMT/150000 REVOKED 11/01/2018.
The above Docket entries were entered after
Judge Rodriguez-Fonts was served with the Habeas
Corpus, but also, the mere fact that Judge
Rodriguez-Fonts is a named Defendant in a Federal
Civil Rights Violation Lawsuit filed by the Petitioner,
reflects clear bias and qualifies for immediate
disqualification.
Judge Rodriguez-Fonts also had an obligation
to recuse himself and refrain from hearing the
Habeas Corpus.
Judge Rodriguez-Fonts should have recused
himself for multiple reasons?* a clear bias; a clear
25

inability to be impartial and a pending federal
lawsuit for violation of Petitioner’s civil rights, and
being in the clear absence of jurisdiction.
On November at 09-47:50, the Petitioner was
called before Judge Oscar Rodriguez-Fonts and at
that hearing Judge Rodriguez-Fonts stated “Case F17-016392; State v. Dimitri, Court is entering a
denial for both of Defense’s Motions, one for Habeas
Corpus. Judge Rodriguez-Fonts did not state the
other Motion on record, and the court is also ordering
a psychological evaluation for Mr. Patterson.”
Please note that at no time did the Petitioner
evidence psychological issues. The Petitioner has
never been treated or diagnosed with psychological
issues. The Petitioner is fully competent of the
proceedings. Ordering a psychological examination
was Judge Rodriguez-Fonts attempting to again

26

intimidate and undermine not only the Judicial
process, but the Petitioner and his Civil Liberties.
“When the Petitioner asked on what was the
basis for Judge Rodriguez-Fonts denying the Writ of
Habeas Corpus, Judge Rodriguez-Fonts refused to
answer. The Petitioner then asked Judge RodriguezFonts to hear the Motion to Discharge that he has
filed multiple times along with the Motion to
Disqualify and Judge Rodriguez-Fonts refused.
When the Petitioner asked on what basis was
his denial of Habeas Corpus, Judge Rodriguez-Fonts
refused to answer. The Petitioner asked the judge to
hear the Motion to Discharge that he has filed
multiple times along with the Motion to Disqualify
and Judge Rodriguez-Fonts refused.
Upon the multiple acts of injustice and
misconduct with Judge Rodriguez-Fonts, the
Petitioner filed a Habeas Corpus and Writ of
27

Mandamus and Prohibition with the Third District
Court of Appeals. Upon the filing of said petition(s),
Judge Rodriguez-Fonts ultimately called the
Petitioner’s formerly retained counsel, (Barry Witlin)
from a year prior and advised him that he was
placing him bach on the case and was denying his
“Motion to Withdraw” filed a year prior. This was
done in an attempt to undermine Petitioner’s appeal
process and rights provided under the United States
Constitution.
Upon the Third District Court of Appeals
dismissal of the Petitions citing Logan v. State, the
Petitioner filed a Writ of Certiorari. Upon the filing
of the Writ of Certiorari, Judge Rodriguez-Fonts, in
violation of multiple cannons, backdated a denial of
the Habeas Corpus.

GROUNDS FOR HABEUS CORPUS RELIEF

28

By Petitioner’s Petition for a Writ of Habeas
Corpus, Dimitri Jonthiel Patterson asserts the fact of
being unlawfully detained pursuant to the Fourth
Amendment and based on an invalid and purported
warrant, and an abandoned case where his 4th, 5th,
13th, and 14th Amendment Rights are being violated*
REASONS FOR GRANTING THE WRIT
A petition seeking a writ of habeas corpus
shall comply with the requirements of 28 U. S, C. §§
2241 and 2242, and in particular with the provision
in the last paragraph of §2242, which requires a
statement of the “reasons for not making application
to the district court of the district in which the
applicant is held.”
To justify the granting of a writ of habeas
corpus, the petitioner must show that exceptional
circumstances warrant the exercise of the Court’s
discretionary powers, and that adequate relief cannot
29

be obtained in any other form or from any other
court. (Rule 20.4(a), Rules of the U.S. Supreme

Court)
Although courts have not “confined themselves
to an arbitrary and technical definition of
‘jurisdiction,’ ” Will v. United States, 389 U.S. 90, 95,
88 S. Ct. 269, 19 L.Ed.2d 305 (1967), “only
exceptional circumstances amounting to a judicial
‘usurpation of power,’ ’’ ibid., or a “clear abuse of
discretion,” Bankers Life & Casualty Co. v. Holland,
346 U.S. 379, 383, 74 S. Ct. 145, 98 L. Ed. 106
(1953), “will justify the invocation of this
extraordinary remedy,” Will, 389 U.S., at 95, 88 S.
Ct. 269, 542 U.S. 367, 380 (2004).
This case presents exceptionally rare
circumstances that warrant this courts original
Habeas jurisdiction.

30

The Petitioner has been maliciously
prosecuted, unlawfully arrested, and is currently
illegally detained, which is in direct violation of the
United States Constitution.
The Petitioner is being unlawfully detained by
a Lower Tribunal Court in a municipal county jail
whose in the clear absence of jurisdiction, and has
asserted facts in this Petition that cannot be
disputed with evidence from the Respondent, and
: therefore, he is entitled to immediate release.
Wales v. Whitnev. 114 U. S. 564, 574
(1885) (emphasis added); see also Braden v. 30th
Judicial Circuit Court of Kv.. 410 U. S. 484. 494-495
(1973); Ex Parte Grossman. 267 U.S. 87 (1925)/2£y
Parte Hudzinss. 249 U.S. 378 (1919)/ Matter ofHeff,
197 U.S. 488 (1905)

31

The U.S. Supreme Court has the power to
discharge a detainee who is in custody in violation of
the United States Constitution. 28 U.S.C. 2241(c)(3).
The great writ of habeas corpus ad
subjiciendum, is among the most precious safeguards
of personal liberty. The right to a writ of habeas
corpus is guaranteed by 28 U.S.C. § 2241.
The proper grounds for jurisdiction for a writ
of habeas corpus are found in 28 U.S.C. § 2241.
The Petitioner cites a “miscarriage of justice”
element to this Habeas Corpus. Petitioner has
reflected by the above that he is currently unlawfully
detained in violation of the Constitution.
Here the Petitioner has not obtained adequate
relief in any form or in any other Court due to a
usurpation of justice by the Eleventh Judicial Circuit
in and for Miami-Dade County, Third District Court
of Appeals of Florida, and the Supreme Court of
32

Florida, abuse of discretion by the United States
Court Southern District of Florida, and the U.S.
Court of Appeals for the Eleventh Circuit. (Also See
Dimitri Patterson v. Miami-Dade Corrections and
Rehabilitation, Case Number 19*10721, and Dimitri
Patterson v. Miami-Dade County, et aL, Case
Number 19*10226*HH).
Secondly, the Petitioner has clearly protected
rights guaranteed to him by the U.S. Constitution in
which he has been deprived through malicious
prosecution, unlawful arrests, and unlawful
detainment. Lastly, the issuance of a Writ of Habeas
Corpus by this Court is appropriate because it
protects the constitutional rights of the Petitioner,
and safeguards the public’s interests.
CONCLUSION AND RELIEF SOUGHT
For all the reasons discussed herein, Dimitri
Jonthiel Patterson respectfully urges this Honorable
33

Court to grant Habeas Corpus relief under 28 U.S.C.
§2241, by ordering the Miami-Dade County
Corrections and Rehabilitation Department to
immediately release the Petitioner on his own
recognizance. Therefore, the Petitioner prays that
this Honorable Court will grant Habeas Corpus relief
under 28 U.S.C. 2241.

Dimitri Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
prohflcdezigns@gmail.com
Phone: 407*777-2269

34

VERIFICATION
Pursuant to 28 U.S.C. § 1746,1, Dimitri Patterson,
declare as follows1.

I am the Petitioner for the above Petition for

Writ of Habeas Corpus, a citizen of the United States
of America, and a resident of Florida.
2.

I have personal knowledge of the factual

statements set forth in the foregoing Petition for
Writ of Habeas Corpus, and if called on to testify I
would competently testify as to the matters stated
herein.
3.

I verify under penalty of perjury under the

laws of the United States of America, that the factual
statements in this Petition concerning myself, and
the actions of the State Officers named in this
Petition, are true and correct.

35

r-

Executed on September 16, 2019

Dimitri Patterson
16877 East Colonial Drive
Unit 403
Orlando, FL 32820
p rol ificdezigns@gmail. com
407-777-2269

36

